APPENDIX “A”
United State District Court, of Equity
Jurisdiction, Case No. 8:19-cv02110-JLS (DFM),
Request for Injunction, 28 USC 881367(a), 1657(a),
and 1746, FRCP 65(d), and applicable provisions of
Rule 52(a)(b)(c). Date of Opinion, November 18, 2019.
This matter is before the Court on the Request
for an Injunction filed by Jack R. Finnegan.
The substance of the relief sought by Plaintiff
is an order requiring that the sale of real property
(located at 25146 Manzanita. Drive, Dana Point, CA)
be voided and that the property be returned to him.
(See Doc. 1-1 (Proposed Order)). The sale of the
property occurred over three years ago and was
approved by the Orange County Superior Court. (See
Doc. 1-at 57, Mot. Ex. D (Order Confirming Sale dated
Sept. 23, 2016.)
Plaintiffs request for relief ignores a bedrock
principle of the American jurisprudential system; that
federal district courts simply do not hear appeals of
decisions made by state courts.
What follows is an opinion of Rooker-Feldman
doctrine.
Because Plaintiffs Motion seeks relief that
would constitute a de facto appeal of a state-court
decision, the Court lacks jurisdiction to consider it.
The Court DISMISSES the present case WITH
PREJUDICE.
IT IS SO ORDERED.

APPENDIX “B”
United States Court of Appeals for the Ninth Circuit
Memorandum Case No. 19-56360.
Jack R. Finnegan appeals pro se from the
district court’s order denying his motion for a
[preliminary injunction in his 42 USC 81983 action
challenging the validity of the sale of his property. We
have jurisdiction under 28 USC 81291. We review de
novo dismissal under the Rooker-Feldman doctrine.
Noel v. Hall, 341 F.3d 1148, 1154 (9‘h Cir. 2003). We
affirm.
The District court properly dismissed
Finnegan’s action for lack of subject matter
jurisdiction under Rooker-Feldman doctrine because
it was a “de facto appeal” of a prior state court decision
and Finnegan raised claims that were “inextricably
intertwined” with that state court decision. See id. at
1163-65 (discussing the Rooker-Feldman doctrine);
see also Cooper v. Ramos, 704 F.3d 772, 782 (9th Cir.
2012) (explaining that claims, as well as requests for
damages , are “inextricably intertwined” with the
state court decision where federal adjudication “
would impermissibly undercut the state ruling on the
same issues.”
AFFIRMED

